                        UNITED STATES DEPARTMENT OF EDUCATION 

                                         OFFICE OF INSPECTOR GENERAL 

                                   1999 BRYAN STREET, HARWOOD CENTER, SUITE 2630 

                                              DALLAS, TEXAS 75201-6817 

                                        PHONE: (214) 880-3031 FAX: (214) 880-2492 



                                                   DEC       9 2004 



Ms. Sharon Wells
Education Program Specialist
U. S. Department of the Interior
Bureau of Indian Affairs
Office of Indian Education Programs
1849 CSt., NW, Room 3512, MID
Washington, DC 20240

Dear Ms. Wells:

This Final Audit Report (ED-OIGI A06-E0005) presents the results of our audit of the
Individuals with Disabilities Education Act (IDEA), Part B requirements at Eastern Navajo
Agency (Eastern Navajo) for the period July 1, 2001, through September 30, 2003. Our
objective was to determine whether Eastern Navajo administered IDEA, Part B funds in
accordance with requirements, laws and regulations, and provided services to eligible children in
accordance with each student's Individualized Education Program (IEP).

We provided a draft of this report to the Bureau of Indian Affairs (BIA), Office of Indian
Education Programs. In its response to our draft report, BIA officials generally agreed with our
recommendations. We have summarized BIA's comments in the body of the report and have
included the response as an Attachment to this report.




The Department of Education (Department) provides funding from major program grants to the
Bureau of Indian Affairs (BIA), an agency within the Department of the Interior. The BIA
allocates these funds to elementary and secondary schools operated or funded by the Secretary of
the Interior, including tribally operated schools that are funded by the BIA. These grants support
students with disabilities and disadvantaged children. The Department provided $140 million
(22 percent) of BIA' s school operating funds in 2002. The program funds from the Department
have constituted an increasing share of these schools' operating budgets since fiscal year (FY)
1999 (from 18.2 percent to 22 percent in fiscal year 2002). This is due in part to large increases




       Our mission is to promote the efficiency, effectiveness, and integrity o/the Department's programs and operations
ED-OIG/A06-E0005                                                                           Page 2 of 7


since 1999 in two major Department programs under which BIA receives funds, IDEA, Part B,
and Elementary and Secondary Education Act, Title I (Title I). At BIA funded schools, funds for
students with disabilities under IDEA increased by 50 percent, and Title I funds for
disadvantaged students increased by 21 percent for fiscal years 1999 through 2002. As the
IDEA, Part B appropriation increased, IDEA, Part B funds provided to the Secretary of the
Interior have been capped in the FY 2002, 2003, and 2004 appropriation language at the prior
year’s funding level, plus inflation.

IDEA, Part B requires the Department to provide funds to the Secretary of the Interior to assist in
providing special education and related services to children with disabilities. From the amount
appropriated for any fiscal year, the Department shall reserve 1.226 percent to provide assistance
to the Secretary of the Interior, of which 80 percent is allotted for serving children ages 5 through
21 with disabilities enrolled in elementary and secondary schools for Indian children operated or
funded by the Secretary of the Interior. The Secretary of the Interior is required to submit
information to the Department that it meets the requirements of IDEA. In addition, the Secretary
of the Interior will provide several assurances, including an assurance that the Department of the
Interior will cooperate with the Department in its exercise of monitoring and oversight
requirements.

BIA funded schools are to use 15 percent of the Indian School Equalization Program (ISEP)
formula funds generated by their base instructional administration to fund their special education
programs. ISEP funds constitute the largest amount of the Department of Interior funds used for
school-level administration, such as principals’ salaries and administrative assistance, in addition
to salaries for teachers, teacher aides, and the cost of materials. If the 15 percent is not sufficient
to fund the services needed by all eligible ISEP students with disabilities, then the school may
apply for IDEA, Part B funds. Schools must demonstrate need when applying for these funds.

Eastern Navajo, located in Crownpoint, New Mexico, serves as the education line office and
administers funds for 16 BIA controlled and two contract schools on the Eastern Navajo Indian
Reservation. During our two-year audit period, the BIA disbursed $9.5 million of IDEA, Part B
funds to Eastern Navajo of which $1,826,655 was disbursed to the two schools we visited,
Wingate Elementary and Bread Springs Day School, as follows:

                     School Year 2001-2002                             $ 812,455
                     School Year 2002-2003                             $1,014,200
                     Total                                             $1,826,655

For the 2001-2002 school year, Wingate Elementary and Bread Springs Day School had an
enrollment of 807 students with 159 classified as disabled; and in the 2002-2003 school year,
enrollment was 816 students with 154 classified as disabled. The average amount of IDEA, Part
B funds per pupil was $6,379 in the 2001-2002 school year and $5,276 in the 2002-2003 school
year.
ED-OIG/A06-E0005                                                                                       Page 3 of 7



                                             AUDIT RESULTS

Eastern Navajo was unable to demonstrate that these two schools provided the planned special
education and related services to 55 percent of the students in our sample in accordance with
their IEP.

According to 34 C.F.R. § 300.341(a)(1)(2), The [Secretary of the Interior]1 shall ensure that each
public agency develops and implements an IEP for each eligible child with a disability served by
that agency. The IEP must contain certain elements according to 34 C.F.R. § 300.347,
including—

     (a)(3) A statement of the special education and related services and supplementary aids
     and services to be provided to the child, . .

     (a)(7)(ii)(A) A statement of how the child’s parents will be regularly informed (through
     such means as periodic report cards), at least as often as parents are informed of their
     nondisabled children’s progress of, . . . Their child’s progress toward the annual goals.

Further, 34 C.F.R. § 300.350(a)(1) requires that each public agency must provide special
education and related services to a child with a disability in accordance with the child’s IEP.

An IEP has several elements, including the child’s present level of educational performance, the
annual goals and objectives, as well as the direct special education and related services that will
be provided to help meet those goals and objectives. The IEP must include a statement of how
the parents will be informed of the child’s progress, including the extent to which the progress is
sufficient to enable the child to achieve the annual goals. However, the progress reports
provided to parents do not address the frequency and duration of the services being provided.
The frequency and duration of actual services provided should be documented in teachers’
attendance records.

Concerning the need to document special education services provided, OMB Circular A-87, Cost
Principles for State, Local, and Indian Tribal Governments, Attachment A, Paragraph
C.1(a)(b)(j) (1997) provides that—

     To be allowable under Federal awards, costs must . . . Be necessary and reasonable for
     proper and efficient performance and administration of Federal awards . . . Be allocable
     to Federal awards . . . Be adequately documented.

To determine whether Wingate Elementary and Bread Springs Day School were providing the
required services and documenting those services, we selected a random sample of 25 of 159
students with disabilities in school year 2001-2002 and 28 of 154 students in school year 2002-
2003. We found that all of the files contained an IEP, and 52 of the 53 files contained the


1
  The regulations specifically refer to the SEA (State Educational Agency). However, 34 C.F.R. § 300.267 requires
the Secretary of the Interior to comply with specific sections of 34 C.F.R. Part 300, including 34 C.F.R. § 300.341.
ED-OIG/A06-E0005 	                                                                       Page 4 of 7


required progress reports. However, Eastern Navajo could not provide documentation to support
that it provided the required special education services to 29 of the 53 students.

We concluded this condition occurred because school officials did not have procedures in place
to (1) ensure special education and related services were provided in accordance with each
student’s IEP, and (2) document that special education and related services were provided to all
students with disabilities in accordance with their IEPs.

Based on the high error rate in our sample at Wingate Elementary and Bread Springs Day
School, we believe Eastern Navajo may not be able to document that it provided the required
special education services to a significant percentage of the students with disabilities during our
two-year audit period. The high error rate and lack of documentation indicates that Eastern
Navajo has a management system that does not meet the management standards set forth in the
regulations. The regulations at 34 C.F.R. § 80.12(a) states that a grantee may be considered
“high risk” if an awarding agency determines that a grantee—

       (1) Has a history of unsatisfactory performance, or
       (2) Is not financially stable, or
       (3) Has a management system that does not meet the management standards set forth in
           this part, or
       (4) Has not conformed to terms and conditions of previous awards, or
       (5) Is otherwise not responsible; and if the awarding agency determines that an award
           will be made, special conditions and/or restrictions shall correspond to the high risk
           condition and shall be included in the award.


                                  RECOMMENDATIONS

We recommend that the Assistant Secretary for Special Education and Rehabilitative Services
instruct the Bureau of Indian Affairs to—

1. 	 Obtain assurance from Eastern Navajo officials that the $9.5 million of IDEA, Part B funds
     were used to deliver the educational assistance proposed in each of the IEPs for all children
     with disabilities throughout all 18 schools.

2. 	 Instruct Eastern Navajo to document all special education and related services provided to
     each current student with disabilities.

3. 	 Submit a corrective action plan, which includes strategies, benchmarks, proposed evidence of
     change, targets and timelines, to ensure the noncompliance identified in this audit is
     corrected.
ED-OIG/A06-E0005 	                                                                      Page 5 of 7



We also recommend that the Assistant Secretary for Special Education and Rehabilitative
Services—

4. 	 Evaluate the corrective action plan submitted and determine whether the action proposed will
     correct the noncompliance identified in this audit.

5. 	 Monitor the corrective action taken and determine if the corrective action was effective. If
     the corrective action was not effective, determine whether Eastern Navajo should be
     designated as a high-risk grantee.


                        BIA’S COMMENTS TO THE DRAFT REPORT

BIA agreed to implement our recommendations. BIA stated, “We believe this response to the
Draft Audit Report will prove to be a reasonable and effective set of actions. Documentation is
much improved relative to the audited fiscal years. We are fully committed to having complete
and accurate documentation for all Part B funded services.” BIA also proposed a corrective
action plan that included strategies, benchmarks, targets and timelines to ensure the
noncompliance(s) identified in the draft report was corrected.


                                              OIG’S RESPONSE

We reviewed the BIA response to the draft report and the corrective action plan. We believe the
proposed corrective actions will address the issue of documenting services provided to children
with disabilities.


                        OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether Eastern Navajo administered IDEA, Part B funds in
accordance with requirements, laws and regulations,2 and provided services to eligible children
in accordance with each student’s IEP.

To accomplish our objective, we—

           • 	 Reviewed Eastern Navajo’s Special Education application and budget;
           • 	 Reviewed detailed expense reports and payroll information regarding IDEA, Part B
               expenditures. We compared the information to budget information and performed
               reasonableness tests on the information provided;
           • 	 Reviewed Eastern Navajo’s Organizational Chart;

2
    Code of Federal Regulations 34 Part 300 to 399 revised as of July 1, 2002.
ED-OIG/A06-E0005 	                                                                      Page 6 of 7


       • 	 Interviewed various Eastern Navajo employees and Department of Interior/ BIA
           officials;
       • 	 Selected two schools for a site visit. Wingate was selected because it has the largest
           student enrollment, and Bread Springs has the highest expenditure per student;
       • 	 Reviewed the student rosters of both schools for the 2001-2002 and 2002-2003 school
           years; and
       • 	 Randomly selected and reviewed files for 53 disabled students—25 students in school
           year 2001-2002, and 28 students in school year 2002-2003. We reviewed 10% of the
           student files at Wingate and 100% of the student files at Bread Springs due to the
           small number of students requiring special education services. We reviewed IEPs,
           progress reports, and a list of services to be provided. We then compared the list of
           services to supporting documentation (i.e. teacher attendance books, special education
           providers attendance books, and other relevant documentation).

We relied upon the computerized student roster lists provided by Eastern Navajo officials to
select our sample. We tested the student roster lists for accuracy and completeness by comparing
selected source records to the roster list. Based on this test, we concluded the student roster list
was sufficiently reliable to be used for the sample population.

We conducted our fieldwork at Eastern Navajo Agency in Crownpoint, New Mexico, and at
Bread Springs Day School and Wingate Elementary both near Gallup, New Mexico, on January
27 through February 3, 2004. We discussed the results of our audit with Eastern Navajo officials
on February 3, 2004. An exit conference was held with BIA officials on April 27, 2004.

Our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of audit described above.


                    STATEMENT ON INTERNAL CONTROLS

As part of our review, we assessed Eastern Navajo’s system of internal controls, policies, and
procedures applicable to providing special education services to children with disabilities.
Because of inherent limitations, a study and evaluation made for the limited purposes described
above would not necessarily disclose all material weaknesses in the internal controls. However,
our review identified that Eastern Navajo needs to improve its internal controls related to
documenting special education and related services provided to children with disabilities in
accordance with each child’s IEP. Those weaknesses and their effects are discussed in the
AUDIT RESULTS section of this report.
ED-OIG/A06-E0005                                                                          Page 7 of 7



                            ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department of
Education officials.

If you have any additional comments or information that you believe may have a
bearing on the resolution of this audit, you should send them directly to the following
Education Department officials, who will consider them before taking final
Departmental action on the audit:

                      Troy Justesen, Ed.D.
                      Acting Assistant Secretary
                      Office of Special Education and Rehabilitative Services
                      U.S. Department of Education
                      Federal Building No. 6, Room 3W315
                      400 Maryland Avenue, SW
                      Washington, DC 20202

It is the policy of the U.S. Department of Education to expedite the resolution of audits
by initiating timely action on the findings and recommendations contained therein.
Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with Freedom of Information Act (5 U.S.C §552), reports issued by the Office of
Inspector General are available, if requested; to members of the press and general public to the
extent information contained therein is not subject to exemptions in the Act.

                                                     Sincerely,


                                                     Jon E. Kucholtz /s/ (for)
                                                     Sherri L. Demmel
                                                     Regional Inspector General
                                                       for Audit

Attachment
                      United States Department of the Interior
                                   BUREAU OF INDIAN AFFAIRS 

                                           Washington, D.C. 20240 

IN REPLY REFER TO:


                                              OCl 2 0 2004



  Sherri L. Demmel 

  Regional Inspector General for Audit 

  U.S. Department of Education 

  Office of Inspector General 

  1999 Bryan Street, Suite 2630 

  Dallas, Texas 75201-6817 


  Dear Ms. Demmel:

  This letter is written in response to the results of the Office oflnspector General Audit of the
  Individuals with Disabilities Education Act (IDEA), Part B requirements at Eastern Navajo
  Agency (Eastern Navajo) for the period July 1,2001 through September 30,2003. As stated in
  your letter, the objective was to determine whether Eastern Navajo administered IDEA, Part B
  funds in accordance with requirements, laws and regulations, and whether they provided services
  to eligible children in accordance with the student's Individualized Education Program (IEP).

   The audit report suggests that the schools (Wingate Elementary and Bread Springs Day School)
   were not providing the required services and documenting those services. A random sample of
   25 of 159 students with disabilities in school year 2001-2002 and 28 of 154 students in school
   year 2002-2003 were audited. It was found that all files contained an IEP, and 52 of the 53 files
   contained the required progress reports. However, Eastern Navajo could not provide
   documentation to support that it provided the required special education services to 29 of the 53
   students.

   The Office oflndian Education Program's (OIEP) response is as follows: The system Eastern
   Navajo Agency has in place for monitoring the documentation of obligated services rendered
   have proven to be inadequate. The system collects service log data from all ancillary service
   providers (e.g., school psychologists, speech pathologists, occupational therapists, and etc.). This
   system was in place during the IG audit but did not have data for the fiscal years in question.
   The data is collected on a database on a monthly basis and is supported by a written service
   provider log.

   Enclosed is a corrective action plan that includes strategies, benchmarks, targets and timelines to
   ensure the noncompliance(s) identified in this audit is corrected.
                                                                                          Attachment




We believe this response to the Draft Audit Report will prove to be a reasonable and effective set
of actions. Documentation is already much improved relative to the audited fiscal years. We are
fully committed to having complete and accurate documentation for all Part B funded services.

                                             Sincerely,


                                             'vvt
                                             ~
                                                                      '
                                                     Parisian, Director
                                             Office of Indian Education Programs

Enclosures
                                                            Action Plan
   Finding 1: Obtain assurance from Eastern Navajo officials that the $9.5 million ofIDEA, Part B funds were used to deliver the
   educational assistance proposed in each ofthe IEPs for all children with disabilities throughout all 18 schools.

   Improvement Strategy              Benchmarks                   Timelines               Resources                   Validation
A written assurance will be    200410 Audit                   a) November 15, 04    Eastern Navajo Agency     Written Assurance
obtained through the Center                                                         Staff
for School Improvement,
indicating that the $9.5
million of IDEA, Part B
funds were used to deliver the
educational assistance
proposed in each of the IEPs
for all children with
disabilities throughout all 18
schools.
 1. The Center for School
Improvement will request:
   a) 	 IDEA Part B budget
         spreadsheets from
         Eastern Navajo
         Agency and all 18
         schools for SY 01-02
         and SY 02-02; AND
    b) 	 Attendance records of
         related service
         provider, inclusion
         teachers,resource
         room teachers, and
         pull-out providers.
  Finding 2: Instruct Eastern Navajo to document all special education and related services provided to each current student with
  disabilities
  Improvement Strategy                 Benchmarks                    Timelines                Resources                 Validation
a) The Center for School         2004 IG Audit                November 30, 04          Eastern Navajo           Approved policy
Improvement will write a                                                               Agency, CSI, and
policy for all Bureau funded                                                           School Principals
schools to follow to
document services provided
to all eligible children with
disabilities. (See
Attachment)

b) All special education                                      December 09,2004         CSI                      Implementation
coordinators, teachers and                                                             18 Agency Staff          monitored on a monthly
related service providers will                                                         Special Education        basis by Agency Staff
attend a training to ensure                                                            teachers and Related                              ,



effective implementation of                                                            Service Providers
the said policy.

c) File Maintenance              Monitoring Checklist         On-going (Monthly        Agency Sped. Coord.'s    Performance Reviews

  Finding 3: Submit a corrective action plan. See Above.
                                                              ATTENDANCE LOG 


     SETTING: ( Resource Room, Inclusion, Speech, etc.) 

     TEACHER and/or PROVIDER NAME: 

     MONTH: 


I Student   I Assignment   IM   T    W   TH     F   Total
                                                    Hours
                                                            M   T W   TH    F   Total
                                                                                Hours
                                                                                        M   T W   TH   F   Total
                                                                                                           Hours
                                                                                                                   M   T W   TH   F   Total
                                                                                                                                      Hours
 Initials




     LEGEND:       P=Present        A= Absent       T=Tardy     E=Excused
